                         Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices                          8987

741–8138 (301–443–0572 in the               Food and Drug Administration, 5600          combating fraud and abuse. In
Washington, DC area), code 12536.           Fishers Lane, Rockville, MD 20857,          developing these compliance guidances,
Please call the Information Line for up-    301–827–1471.                               the OIG has agreed to work closely with
to-date information on this meeting.        SUPPLEMENTARY INFORMATION: In the           the Health Care Financing
   Agenda: On March 12, 1998, the           Federal Register of December 2, 1997        Administration, the Department of
committee will discuss a proposed draft     (62 FR 63721), the agency announced         Justice and various sectors of the health
of a guidance document for the              that the proposed information collection    care industry. The first of these
development of drugs for the treatment      had been submitted to OMB for review        compliance guidances focused on
of diabetes mellitis. On March 13, 1998,    and clearance under section 3507 of the     clinical laboratories, and was intended
the committee will discuss New Drug         PRA (44 U.S.C. 3507). An agency may         to provide clear guidance to those
Application 20–766, XenicalTM, (orlistat    not conduct or sponsor, and a person is     segments of the health care industry that
tetrahydrolipstatin, Hoffman-LaRoche)       not required to respond to, a collection    were interested in reducing fraud and
for long term treatment of obesity.         of information unless it displays a         abuse within their organizations. The
   Procedure: Interested persons may        currently valid OMB control number.         compliance guidance was reprinted in
present data, information, or views,        OMB has now approved the information        an OIG Federal Register notice
orally or in writing, on issues pending     collection and has assigned OMB             published on March 3, 1997 (62 FR
before the committee. Written               control number 0910–0360. The               9435). This second compliance program
submissions may be made to the contact      approval expires on January 31, 1999.       guidance developed by the OIG
person by March 6, 1998. Oral                 Dated: February 13, 1998.                 continues to build upon the basic
presentations from the public will be       William K. Hubbard,                         elements contained in our initial
scheduled between approximately 8           Associate Commissioner for Policy
                                                                                        compliance guidance, and encompasses
a.m. and 8:30 a.m. on March 12 and 13,      Coordination.                               principles that are applicable to
1998. Time allotted for each                [FR Doc. 98–4374 Filed 2–20–98; 8:45 am]    hospitals as well as a wider variety of
presentation may be limited. Those                                                      organizations that provide health care
                                            BILLING CODE 4160–01–F
desiring to make formal oral                                                            services to beneficiaries of Medicare,
presentations should notify the contact                                                 Medicaid and all other Federal health
person before March 6, 1998, and            DEPARTMENT OF HEALTH AND                    care programs.
submit a brief statement of the general     HUMAN SERVICES                                 Like the previously-issued
nature of the evidence or arguments                                                     compliance program guidance for
they wish to present, the names and         Office of Inspector General                 clinical laboratories and future
addresses of proposed participants, and                                                 compliance program guidances,
an indication of the approximate time       Publication of the OIG Compliance           adoption of the hospital compliance
requested to make their presentation.       Program Guidance for Hospitals              program guidance set forth below will
   Notice of this meeting is given under    AGENCY: Office of Inspector General         be voluntary. Future compliance
the Federal Advisory Committee Act (5       (OIG), HHS.                                 program guidances to be developed will
U.S.C. app. 2).                                                                         be similarly structured and based on
                                            ACTION: Notice.
  Dated: February 18, 1998.                                                             substantive policy recommendations,
Michael A. Friedman,                        SUMMARY:    This Federal Register notice    the elements of the Federal Sentencing
                                            sets forth the recently issued              Guidelines, and applicable statutes,
Deputy Commissioner for Operations.
                                            compliance program guidance for             regulations and Federal health care
[FR Doc. 98–4529 Filed 2–20–98; 8:45 am]                                                program requirements.
                                            hospitals developed by the Office of
BILLING CODE 4160–01–F
                                            Inspector General (OIG) in cooperation         A reprint of the OIG compliance
                                            with, and with input from, several          program guidance follows.
                                            provider groups and industry                Compliance Program Guidance for
DEPARTMENT OF HEALTH AND
                                            representatives. Many providers and         Hospitals
HUMAN SERVICES
                                            provider organizations have expressed
Food and Drug Administration                an interest in better protecting their      I. Introduction
                                            operations from fraud and abuse                The Office of Inspector General (OIG)
[Docket No. 97N–0260]                       through the adoption of voluntary           of the Department of Health and Human
                                            compliance programs. The first              Services (HHS) continues in its efforts to
Agency Information Collection               compliance guidance, addressing
Activities; Announcement of OMB                                                         promote voluntarily developed and
                                            clinical laboratories, was prepared by      implemented compliance programs for
Approval                                    the OIG and published in the Federal        the health care industry. The following
AGENCY:   Food and Drug Administration,     Register on March 3, 1997. We believe       compliance program guidance is
HHS.                                        the development of this second program      intended to assist hospitals and their
ACTION:   Notice.                           guidance, for hospitals, will continue as   agents and subproviders (referred to
                                            a positive step towards promoting a         collectively in this document as
SUMMARY: The Food and Drug                  higher level of ethical and lawful          ‘‘hospitals’’) develop effective internal
Administration (FDA) is announcing          conduct throughout the health care          controls that promote adherence to
that a collection of information entitled   industry.                                   applicable Federal and State law, and
‘‘Customer/Partner Satisfaction             FOR FURTHER INFORMATION CONTACT:            the program requirements of Federal,
Surveys’’ has been approved by the          Stephen Davis, Office of Counsel to the     State and private health plans. The
Office of Management and Budget             Inspector General, (202) 619–0070.          adoption and implementation of
(OMB) under the Paperwork Reduction         SUPPLEMENTARY INFORMATION: The              voluntary compliance programs
Act of 1995 (the PRA).                      creation of compliance program              significantly advance the prevention of
FOR FURTHER INFORMATION CONTACT:            guidances has become a major initiative     fraud, abuse and waste in these health
Mark L. Pincus, Office of Information       of the OIG in its efforts to engage the     care plans while at the same time
Resources Management (HFA–250),             private health care community in            furthering the fundamental mission of
8988                   Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices

all hospitals, which is to provide quality   concrete method that may improve                           • Develop procedures that allow the
care to patients.                            quality of care and reduce waste.                       prompt, thorough investigation of
   Within this document, the OIG             Compliance programs also provide a                      alleged misconduct by corporate
intends to provide first, its general        central coordinating mechanism for                      officers, managers, employees,
views on the value and fundamental           furnishing and disseminating                            independent contractors, physicians,
principles of hospital compliance            information and guidance on applicable                  other health care professionals and
programs, and, second, specific              Federal and State statutes, regulations                 consultants;
elements that each hospital should           and other requirements.                                    • Initiate immediate and appropriate
consider when developing and                    Adopting and implementing an                         corrective action; and
implementing an effective compliance         effective compliance program requires a                    • Through early detection and
program. While this document presents        substantial commitment of time, energy                  reporting, minimize the loss to the
basic procedural and structural              and resources by senior management                      Government from false claims, and
guidance for designing a compliance          and the hospital’s governing body.1                     thereby reduce the hospital’s exposure
program, it is not in itself a compliance    Programs hastily constructed and                        to civil damages and penalties, criminal
program. Rather, it is a set of guidelines   implemented without appropriate                         sanctions, and administrative remedies,
for a hospital interested in                 ongoing monitoring will likely be                       such as program exclusion.2
implementing a compliance program to         ineffective and could result in greater                    Overall, the OIG believes that an
consider. The recommendations and            harm or liability to the hospital than no               effective compliance program is a sound
guidelines provided in this document         program at all. While it may require                    investment on the part of a hospital.
must be considered depending upon            significant additional resources or                        The OIG recognizes that the
their applicability to each particular       reallocation of existing resources to                   implementation of a compliance
hospital.                                    implement an effective compliance                       program may not entirely eliminate
   Fundamentally, compliance efforts         program, the OIG believes that the long                 fraud, abuse and waste from the hospital
are designed to establish a culture          term benefits of implementing the                       system. However, a sincere effort by
within a hospital that promotes              program outweigh the costs.                             hospitals to comply with applicable
prevention, detection and resolution of                                                              Federal and State standards, as well as
instances of conduct that do not             A. Benefits of a Compliance Program                     the requirements of private health care
conform to Federal and State law, and          In addition to fulfilling its legal duty              programs, through the establishment of
Federal, State and private payor health      to ensure that it is not submitting false               an effective compliance program,
care program requirements, as well as        or inaccurate claims to government and                  significantly reduces the risk of
the hospital’s ethical and business          private payors, a hospital may gain                     unlawful or improper conduct.
policies. In practice, the compliance        numerous additional benefits by                         B. Application of Compliance Program
program should effectively articulate        implementing an effective compliance                    Guidance
and demonstrate the organization’s           program. Such programs make good
commitment to the compliance process.        business sense in that they help a                         There is no single ‘‘best’’ hospital
The existence of benchmarks that             hospital fulfill its fundamental care-                  compliance program, given the diversity
demonstrate implementation and               giving mission to patients and the                      within the industry. The OIG
achievements are essential to any            community, and assist hospitals in                      understands the variances and
effective compliance program.                identifying weaknesses in internal                      complexities within the hospital
Eventually, a compliance program             systems and management.                                 industry and is sensitive to the
should become part of the fabric of            Other important potential benefits                    differences among large urban medical
routine hospital operations.                 include the ability to:                                 centers, community hospitals, small,
   Specifically, compliance programs           • Concretely demonstrate to                           rural hospitals, specialty hospitals, and
guide a hospital’s governing body (e.g.,     employees and the community at large                    other types of hospital organizations
Boards of Directors or Trustees), Chief      the hospital’s strong commitment to                     and systems. However, elements of this
Executive Officer (CEO), managers,           honest and responsible provider and                     guidance can be used by all hospitals,
other employees and physicians and           corporate conduct;                                      regardless of size, location or corporate
other health care professionals in the         • Provide a more accurate view of                     structure, to establish an effective
efficient management and operation of a      employee and contractor behavior                        compliance program. We recognize that
hospital. They are especially critical as    relating to fraud and abuse;                            some hospitals may not be able to adopt
an internal control in the                     • Identify and prevent criminal and                   certain elements to the same
reimbursement and payment areas,             unethical conduct;                                      comprehensive degree that others with
where claims and billing operations are        • Tailor a compliance program to a                    more extensive resources may achieve.
often the source of fraud and abuse and,     hospital’s specific needs;                              This guidance represents the OIG’s
                                               • Improve the quality of patient care;                suggestions on how a hospital can best
therefore, historically have been the          • Create a centralized source for
focus of government regulation, scrutiny                                                             establish internal controls and
                                             distributing information on health care                 monitoring to correct and prevent
and sanctions.                               statutes, regulations and other program
   It is incumbent upon a hospital’s                                                                 fraudulent activities. By no means
                                             directives related to fraud and abuse                   should the contents of this guidance be
corporate officers and managers to
                                             and related issues;                                     viewed as an exclusive discussion of the
provide ethical leadership to the              • Develop a methodology that
organization and to assure that adequate     encourages employees to report                            2 The OIG, for example, will consider the
systems are in place to facilitate ethical   potential problems;                                     existence of an effective compliance program that
and legal conduct. Indeed, many                                                                      pre-dated any Governmental investigation when
hospitals and hospital organizations           1 Indeed, recent case law suggests that the failure   addressing the appropriateness of administrative
have adopted mission statements              of a corporate Director to attempt in good faith to     penalties. Further, the False Claims Act, 31 U.S.C.
articulating their commitment to high        institute a compliance program in certain situations    3729–3733, provides that a person who has violated
                                             may be a breach of a Director’s fiduciary               the Act, but who voluntarily discloses the violation
ethical standards. A formal compliance       obligations. See, e.g., In re Caremark International    to the Government, in certain circumstances will be
program, as an additional element in         Inc. Derivative Litigation, 698 A.2d 959 (Ct. Chanc.    subject to not less than double, as opposed to treble,
this process, offers a hospital a further    Del. 1996).                                             damages. See 31 U.S.C. 3729(a).
                             Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices                                                         8989

advisable elements of a compliance                      represent a guide—a process that can be                 and that address specific areas of
program.                                                used by hospitals, large or small, urban                potential fraud, such as claims
   The OIG believes that input and                      or rural, for-profit or not for-profit.                 development and submission processes,
support by representatives of the major                 Moreover, the elements can be                           code gaming, and financial relationships
hospital trade associations is critical to              incorporated into the managerial                        with physicians and other health care
the development and success of this                     structure of multi-hospital and                         professionals;
compliance program guidance.                            integrated delivery systems. As we                         (2) The designation of a chief
Therefore, in drafting this guidance, the               stated in our clinical laboratory plan,                 compliance officer and other
OIG received and considered input from                  these suggested guidelines can be                       appropriate bodies, e.g., a corporate
various hospital and medical                            tailored to fit the needs and financial                 compliance committee, charged with
associations, as well as professional                   realities of a particular hospital. The                 the responsibility of operating and
practice organizations. Further, we took                OIG is cognizant that with regard to                    monitoring the compliance program,
into consideration previous OIG                         compliance programs, one model is not                   and who report directly to the CEO and
publications, such as Special Fraud                     suitable to every hospital. Nonetheless,                the governing body;
Alerts and Management Advisory                          the OIG believes that every hospital,                      (3) The development and
Reports, the recent findings and                        regardless of size or structure, can                    implementation of regular, effective
recommendations in reports issued by                    benefit from the principles espoused in                 education and training programs for all
OIG’s Office of Audit Services and                      this guidance.                                          affected employees;
Office of Evaluation and Inspections, as                   The OIG believes that every effective                   (4) The maintenance of a process,
well as the experience of past and recent               compliance program must begin with a                    such as a hotline, to receive complaints,
fraud investigations related to hospitals               formal commitment by the hospital’s                     and the adoption of procedures to
conducted by OIG’s Office of                            governing body to include all of the                    protect the anonymity of complainants
Investigations and the Department of                    applicable elements listed below. These                 and to protect whistleblowers from
Justice.                                                elements are based on the seven steps of                retaliation;
   As appropriate, this guidance may be                 the Federal Sentencing Guidelines.6                        (5) The development of a system to
modified and expanded as more                           Further, we believe that every hospital                 respond to allegations of improper/
information and knowledge is obtained                   can implement most of our                               illegal activities and the enforcement of
by the OIG, and as changes in the law,                  recommended elements that expand                        appropriate disciplinary action against
and in the rules, policies and                          upon the seven steps of the Federal                     employees who have violated internal
procedures of the Federal, State and                    Sentencing Guidelines.7 We recognize                    compliance policies, applicable statutes,
private health plans occur. The OIG                     that full implementation of all elements                regulations or Federal health care
understands that hospitals will need                    may not be immediately feasible for all                 program requirements;
adequate time to react to these                         hospitals. However, as a first step, a                     (6) The use of audits and/or other
modifications and expansions to make                    good faith and meaningful commitment                    evaluation techniques to monitor
any necessary changes to their voluntary                on the part of the hospital                             compliance and assist in the reduction
compliance programs. We recognize that                  administration, especially the governing                of identified problem area; and
hospitals are already accountable for                   body and the CEO, will substantially                       (7) The investigation and remediation
complying with an extensive set of                      contribute to a program’s successful                    of identified systemic problems and the
statutory and other legal requirements,                 implementation.                                         development of policies addressing the
                                                           At a minimum, comprehensive                          non-employment or retention of
far more specific and complex than
                                                        compliance programs should include                      sanctioned individuals.
what we have referenced in this
                                                        the following seven elements:
document. We also recognize that the                                                                            A. Written Polices and Procedures
                                                           (1) The development and distribution
development and implementation of
                                                        of written standards of conduct, as well                   Every compliance program should
compliance programs in hospitals often
                                                        as written policies and procedures that                 require the development and
raise sensitive and complex legal and
                                                        promote the hospital’s commitment to                    distribution of written compliance
managerial issues.3 However, the OIG
                                                        compliance (e.g., by including                          policies that identify specific areas of
wishes to offer what it believes is                     adherence to compliance as an element                   risk to the hospital. These policies
critical guidance for providers who are                 in evaluating managers and employees)                   should be developed under the
sincerely attempting to comply with the
                                                                                                                direction and supervision of the chief
relevant health care statutes and                       imposed programs are in effect for a period of three    compliance officer and compliance
regulations.                                            to five years and require many of the elements
                                                        included in this compliance guidance.
                                                                                                                committee, and, at a minimum, should
II. Compliance Program Elements                           6 See United States Sentencing Commission             be provided to all individuals who are
   The elements proposed by these                       Guidelines, Guidelines Manual, 8A1.2, comment.          affected by the particular policy at issue,
guidelines are similar to those of the                  (n.3(k)).                                               including the hospital’s agents and
                                                          7 Current HCFA reimbursement principles
clinical laboratory model compliance                                                                            independent contractors.
                                                        provide that certain of the costs associated with the      1. Standards of Conduct. Hospitals
program published by the OIG in                         creation of a voluntarily established compliance
February 1997 4 and our corporate                       program may be allowable costs on certain types of      should develop standards of conduct for
integrity agreements.5 The elements                     hospitals’ cost reports. These allowable costs, of      all affected employees that include a
                                                        course, must at a minimum be reasonable and             clearly delineated commitment to
                                                        related to patient care. See generally 42 U.S.C.        compliance by the hospital’s senior
   3 Nothing stated herein should be substituted for,
                                                        1395x(v)(1)(A) (definition of reasonable cost); 42
or used in lieu of, competent legal advice from         CFR 413.9(a) and (b)(2) (costs related to patient       management 8 and its divisions,
counsel.                                                care). In contrast, however, costs specifically
   4 See 62 FR 9435, March 3, 1997.
                                                        associated with the implementation of a corporate         8 The OIG strongly encourages high-level
   5 Corporate integrity agreements are executed as     integrity agreement in response to a Government         involvement by the hospital’s governing body, chief
part of a civil settlement between the health care      investigation resulting in a civil or criminal          executive officer, chief operating officer, general
provider and the Government to resolve a case           judgment or settlement are unallowable, and are         counsel, and chief financial officer, as well as other
arising under the False Claims Act (FCA), including     also made specifically and expressly unallowable in     medical personnel, as appropriate, in the
the qui tam provisions of the FCA, based on             corporate integrity agreements and civil fraud          development of standards of conduct. Such
allegations of health care fraud or abuse. These OIG-   settlements.                                                                                         Continued
8990                          Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices

including affiliated providers operating                  Some of the special areas of OIG                            • Unbundling;20
under the hospital’s control,9 hospital-                  concern include.12                                          • Billing for discharge in lieu of
based physicians and other health care                      • Billing for items or services not                    transfer;21
professionals (e.g., utilization review                   actually rendered; 13                                       • Patients’ freedom of choice;22
managers, nurse anesthetists, physician                     • Providing medically unnecessary                         • Credit balances—failure to refund;
assistants and physical therapists).                      services;14                                                 • Hospital incentives that violate the
Standards should articulate the                             • Upcoding;15                                          anti-kickback statute or other similar
hospital’s commitment to comply with                        • ‘‘DRG creep;’’16                                     Federal or State statute or regulation;23
all Federal and State standards, with an                    • Outpatient services rendered in                         • Joint ventures;24
emphasis on preventing fraud and                          connection with inpatient stays;17                          • Financial arrangements between
abuse. They should state the                                • Teaching physician and resident                      hospitals and hospital-based
organization’s mission, goals, and                        requirements for teaching hospitals;                     physicians;25
ethical requirements of compliance and                      • Duplicate billing;18                                    • Stark physician self-referral law;
                                                            • False cost reports;19                                   • Knowing failure to provide covered
reflect a carefully crafted, clear
expression of expectations for all                                                                                 services or necessary care to members of
                                                          ramifications of failing to cease and correct any
hospital governing body members,                          conduct criticized in such a Special Fraud Alert, if
                                                                                                                   a health maintenance organization; and
officers, managers, employees,                            applicable to hospitals, or to take reasonable action       • Patient dumping.26
physicians, and, where appropriate,                       to prevent such conduct from reoccurring in the
                                                          future. If appropriate, a hospital should take the       unallowable costs that resulted from providers’ lack
contractors and other agents. Standards                   steps described in Section G regarding                   of internal controls over costs included in their
should be distributed to, and                             investigations, reporting and correction of              Medicare cost reports. In addition, the OIG is aware
comprehensible by, all employees (e.g.,                   identified problems.                                     of practices in which hospitals inappropriately shift
translated into other languages and                          12 The OIG’s work plan is currently available on      certain costs to cost centers that are below their
written at appropriate reading levels,                    the Internet at http://www.dhhs.gov/progorg/oig.         reimbursement cap and shift non-Medicare related
                                                             13 Billing for services not actually rendered         costs to Medicare cost centers.
where appropriate). Further, to assist in                 involves submitting a claim that represents that the        20 ‘‘Unbundling’’ is the practice of submitting
ensuring that employees continuously                      provider performed a service all or part of which        bills piecemeal or in fragmented fashion to
meet the expected high standards set                      was simply not performed. This form of billing           maximize the reimbursement for various tests or
forth in the code of conduct, any                         fraud occurs in many health care entities, including     procedures that are required to be billed together
                                                          hospitals and nursing homes, and represents a            and therefore at a reduced cost.
employee handbook delineating or                          significant part of the OIG’s investigative caseload.       21 Under the Medicare regulations, when a
expanding upon these standards of                            14 A claim requesting payment for medically           prospective payment system (PPS) hospital
conduct should be regularly updated as                    unnecessary services intentionally seeks                 transfers a patient to another PPS hospital, only the
applicable statutes, regulations and                      reimbursement for a service that is not warranted        hospital to which the patient was transferred may
Federal health care program                               by the patient’s current and documented medical          charge the full DRG; the transferring hospital
                                                          condition. See 42 U.S.C. 1395y(a)(1)(A) (‘‘no            should charge Medicare only a per diem amount.
requirements are modified.10                              payment may be made under part A or part B for              22 This area of concern is particularly important
   2. Risk Areas. The OIG believes that                   any expenses incurred for items or services which        for hospital discharge planners referring patients to
a hospital’s written policies and                         . . . are not reasonable and necessary for the           home health agencies, DME suppliers or long term
procedures should take into                               diagnosis or treatment of illness or injury or to        care and rehabilitation providers.
                                                          improve the functioning of the malformed body               23 Excessive payment for medical directorships,
consideration the regulatory exposure                     member’’). On every HCFA claim form, a physician         free or below market rents or fees for administrative
for each function or department of the                    must certify that the services were medically            services, interest-free loans and excessive payment
hospital. Consequently, we recommend                      necessary for the health of the beneficiary.             for intangible assets in physician practice
                                                             15 ‘‘Upcoding’’ reflects the practice of using a
that the individual policies and                                                                                   acquisitions are examples of arrangements that may
                                                          billing code that provides a higher payment rate         run afoul of the anti-kickback statute. See 42 U.S.C.
procedures be coordinated with the                        than the billing code that actually reflects the         1320a–7b(b) and 59 FR 65372 (12/19/94).
appropriate training and educational                      service furnished to the patient. Upcoding has been         24 Equally troubling to the OIG is the proliferation
programs with an emphasis on areas of                     a major focus of the OIG’s enforcement efforts. In       of business arrangements that may violate the anti-
special concern that have been                            fact, the Health Insurance Portability and               kickback statute. Such arrangements are generally
                                                          Accountability Act of 1996 added another civil           established between those in a position to refer
identified by the OIG through its                         monetary penalty to the OIG’s sanction authorities       business, such as physicians, and those providing
investigative and audit functions.11                      for upcoding violations. See 42 U.S.C. 1320a–            items or services for which a Federal health care
                                                          7a(a)(1)(A).                                             program pays. Sometimes established as ‘‘joint
involvement should help communicate a strong and             16 Like upcoding, ‘‘DRG creep’’ is the practice of
                                                                                                                   ventures,’’ these arrangements may take a variety of
explicit statement of compliance goals and                billing using a Diagnosis Related Group (DRG) code       forms. The OIG currently has a number of
standards.                                                that provides a higher payment rate than the DRG         investigations and audits underway that focus on
   9 E.g., skilled nursing facilities, home health        code that accurately reflects the service furnished      such areas of concern.
agencies, psychiatric units, rehabilitation units,        to the patient.                                             25 Another OIG concern with respect to the anti-
outpatient clinics, clinical laboratories, dialysis          17 Hospitals that submit claims for non-physician
                                                                                                                   kickback statute is hospital financial arrangements
facilities.                                               outpatient services that were already included in        with hospital-based physicians that compensate
   10 The OIG recognizes that not all standards,          the hospital’s inpatient payment under the               physicians for less than the fair market value of
policies and procedures need to be communicated           Prospective Payment System (PPS) are in effect           services they provide to hospitals or require
to all employees. However, the OIG believes that          submitting duplicate claims.                             physicians to pay more than market value for
the bulk of the standards that relate to complying           18 Duplicate billing occurs when the hospital         services provided by the hospital. See OIG
with fraud and abuse laws and other ethical areas         submits more than one claim for the same service         Management Advisory Report: ‘‘Financial
should be addressed and made part of all affected         or the bill is submitted to more than one primary        Arrangements Between Hospitals and Hospital-
employees’ training. The hospital must                    payor at the same time. Although duplicate billing       Based Physicians.’’ OEI–09–89–0030, October 1991.
appropriately decide which additional educational         can occur due to simple error, systematic or             Examples of such arrangements that may violate the
programs should be limited to the different levels        repeated double billing may be viewed as a false         anti-kickback statute are token or no payment for
of employees, based on job functions and areas of         claim, particularly if any overpayment is not            Part A supervision and management services;
responsibility.                                           promptly refunded.                                       requirements to donate equipment to hospitals; and
   11 The OIG periodically issues Special Fraud              19 As another example of health care fraud, the       excessive charges for billing services.
Alters setting forth activities believed to raise legal   submission of false costs reports is usually limited        26 The patient anti-dumping statute, 42 U.S.C.

and enforcement issues. Hospital compliance               to certain Part A providers, such as hospitals,          1395dd, requires that all Medicare participating
programs should require that the legal staff, chief       skilled nursing facilities and home health agencies,     hospitals with an emergency department: (1)
compliance officer, or other appropriate personnel,       which are reimbursed in part on the basis of their       Provide for an appropriate medical screening
carefully consider any and all Special Fraud Alerts       self-reported operating costs. An OIG audit report       examination to determine whether or not an
issued by the OIG that relate to hospitals. Moreover,     on the misuse of fringe benefits and general and         individual requesting such examination has an
the compliance programs should address the                administrative costs identified millions of dollars in   emergency medical condition; and (2) if the person
                              Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices                                                      8991

   Additional risk areas should be                          • State that, consistent with                          • Installing and maintaining
assessed as well by hospitals and                        appropriate guidance from medical staff,               computer software that will identify
incorporated into the written policies                   physician and hospital records and                     those outpatient services that may not
and procedures and training elements                     medical notes used as a basis for a claim              be billed separately from an inpatient
developed as part of their compliance                    submission should be appropriately                     stay; or
programs.                                                organized in a legible form so they can                   • Implementing a periodic manual
   3. Claim Development and                              be audited and reviewed;                               review to determine the appropriateness
Submission Process. A number of the                         • Indicate that the diagnosis and                   of billing each outpatient service claim,
risk areas identified above, pertaining to               procedures reported on the                             to be conducted by one or more
the claim development and submission                     reimbursement claim should be based                    appropriately trained individuals
process, have been the subject of                        on the medical record and other                        familiar with applicable billing rules; or
administrative proceedings, as well as                   documentation, and that the                               • With regard to each inpatient stay,
investigations and prosecutions under                    documentation necessary for accurate                   scrutinizing the propriety of any
the civil False Claims Act and criminal                  code assignment should be available to                 potential bills for outpatient services
statutes. Settlement of these cases often                coding staff; and                                      rendered to that patient at the hospital,
has required the defendants to execute                      • Provide that the compensation for                 within the applicable time period.
corporate integrity agreements, in                       billing department coders and billing                     In addition to the pre-submission
addition to paying significant civil                     consultants should not provide any                     undertakings described above, the
damages and/or criminal fines and                        financial incentive to improperly                      hospital may implement a post-
penalties. These corporate integrity                     upcode claims.                                         submission testing process, as follows:
                                                            The written policies and procedures
agreements have provided the OIG with                                                                              • Implement and maintain a periodic
a mechanism to advise hospitals                          concerning proper coding should reflect
                                                                                                                post-submission random testing process
concerning what it feels are acceptable                  the current reimbursement principles
                                                                                                                that examines or re-examines previously
practices to ensure compliance with                      set forth in applicable regulations 27 and
                                                                                                                submitted claims for accuracy;
                                                         should be developed in tandem with
applicable Federal and State statutes,                                                                             • Inform the fiscal intermediary and
regulations, and program requirements.                   private payor and organizational
                                                                                                                any other appropriate government fiscal
The following recommendations                            standards. Particular attention should be
                                                                                                                agents of the hospital’s testing process;
include a number of provisions from                      paid to issues of medical necessity,
                                                                                                                and
                                                         appropriate diagnosis codes, DRG
various corporate integrity agreements.
                                                         coding, individual Medicare Part B                        • Advise the fiscal intermediary and
While these recommendations include                                                                             any other appropriate government fiscal
examples of effective policies, each                     claims (including evaluation and
                                                         management coding) and the use of                      agents in accordance with current
hospital should develop its own specific                                                                        regulations or program instructions with
policies tailored to fit its individual                  patient discharge codes.28
                                                            a. Outpatient services rendered in                  respect to return of overpayments of any
needs.                                                                                                          incorrectly submitted or paid claims
   With respect to reimbursement                         connection with an inpatient stay.
                                                         Hospitals should implement measures                    and, if the claim has already been paid,
claims, a hospital’s written policies and                                                                       promptly reimburse the fiscal
procedures should reflect and reinforce                  designed to demonstrate their good faith
                                                         efforts to comply with the Medicare                    intermediary and the beneficiary for the
current Federal and State statutes and                                                                          amount of the claim paid by the
                                                         billing rules for outpatient services
regulations regarding the submission of                                                                         government payor and any applicable
                                                         rendered in connection with an
claims and Medicare cost reports. The                                                                           deductibles or copayments, as
                                                         inpatient stay. Although not a guard
policies must create a mechanism for                                                                            appropriate.
                                                         against intentional wrongdoing, the
the billing or reimbursement staff to                                                                              b. Submission of claims for laboratory
                                                         adoption of the following measures are
communicate effectively and accurately                                                                          services. A hospital’s policies should
                                                         advisable:
with the clinical staff. Policies and                                                                           take reasonable steps to ensure that all
procedures should:                                          27 The official coding guidelines are promulgated   claims for clinical and diagnostic
   • Provide for proper and timely                       by HCFA, the National Center for Health Statistics,    laboratory testing services are accurate
documentation of all physician and                       the American Medical Association and the               and correctly identify the services
other professional services prior to                     American Health Information Management
                                                         Association. See International Classification of       ordered by the physician (or other
billing to ensure that only accurate and                 Diseases, 9th Revision, Clinical Modification          authorized requestor) and performed by
properly documented services are                         (ICD9–CM); 1998 Health Care Financing                  the laboratory. The hospital’s written
billed;                                                  Administration Common Procedure Coding System
                                                                                                                policies and procedures should require,
   • Emphasize that claims should be                     (HCPCS); and Physicians’ Current Procedural
                                                                                                                at a minimum,29 that:
                                                         Terminology (CPT).
submitted only when appropriate                             28 The failure of hospital staff to: (i) document      • The hospital bills for laboratory
documentation supports the claims and                    items and services rendered; and (ii) properly         services only after they are performed;
only when such documentation is                          submit them for reimbursement is a major area of          • The hospital bills only for
maintained and available for audit and                   potential fraud and abuse in Federal health care
                                                                                                                medically necessary services;
review. The documentation, which may                     programs. The OIG has undertaken numerous
                                                         audits, investigations, inspections and national          • The hospital bills only for those
include patient records, should record                   enforcement initiatives aimed at reducing potential    tests actually ordered by a physician
the length of time spent in conducting                   and actual fraud, abuse and waste. Recent OIG audit
                                                                                                                and provided by the hospital laboratory;
the activity leading to the record entry,                reports, which have focused on issues such as
                                                         hospital patient transfers incorrectly paid as            • The CPT or HCPCS code used by
and the identity of the individual                       discharges, and hospitals’ general and                 the billing staff accurately describes the
providing the service. The hospital                      administrative costs, continue to reveal abusive,      service that was ordered by the
should consult with its medical staff to                 wasteful or fraudulent behavior by some hospitals.
establish other appropriate                              Our inspection report entitled ‘‘Financial
                                                         Arrangements between Hospitals and Hospital-              29 The OIG’s February 1997 Model Compliance
documentation guidelines;                                Based Physicians,’’ see fn. 25, supra, and our         Plan for Clinical Laboratories provides more
                                                         Special Fraud Alerts on Hospital Incentives to         specific and detailed information than is contained
has such a condition, (a) stabilize that condition; or   Physicians and Joint Venture Arrangements, further     in this section, and hospitals that have clinical
(b) appropriately transfer the patient to another        illustrate how certain business practices may result   laboratories should extract the relevant guidance
hospital.                                                in fraudulent and abusive behavior.                    from both documents.
8992                  Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices

physician and performed by the hospital     should not be claimed for                                a unique position to deliver this
laboratory;                                 reimbursement;                                           information to the health care
   • The coding staff: (1) Only submit         • Costs are properly classified;                      professionals on its staff. Upon request,
diagnostic information obtained from           • Fiscal intermediary prior year audit                a hospital should be able to provide
qualified personnel; and (2) contact the    adjustments are implemented and are                      documentation, such as patients’
appropriate personnel to obtain             either not claimed for reimbursement or                  medical records and physicians’ orders,
diagnostic information in the event that    claimed for reimbursement and clearly                    to support the medical necessity of a
the individual who ordered the test has     identified as protested amounts on the                   service that the hospital has provided.
failed to provide such information; and     cost report;                                             The compliance officer should ensure
   • Where diagnostic information is           • All related parties are identified on               that a clear, comprehensive summary of
obtained from a physician or the            Form 339 submitted with the cost report                  the ‘‘medical necessity’’ definitions and
physician’s staff after receipt of the      and all related party charges are reduced                rules of the various government and
specimen and request for services, the      to cost;                                                 private plans is prepared and
receipt of such information is                 • Requests for exceptions to TEFRA                    disseminated appropriately.
documented and maintained.                  (Tax Equity and Fiscal Responsibility                       5. Anti-Kickback and Self-Referral
   c. Physicians at teaching hospitals.     Act of 1982) limits and the Routine Cost                 Concerns. The hospital should have
Hospitals should ensure the following       Limits are properly documented and                       policies and procedures in place with
with respect to all claims submitted on     supported by verifiable and auditable                    respect to compliance with Federal and
behalf of teaching physicians:              data;                                                    State anti-kickback statutes, as well as
   • Only services actually provided           • The hospital’s procedures for                       the Stark physician self-referral law.31
may be billed;                              reporting of bad debts on the cost report                Such policies should provide that:
   • Every physician who provides or        are in accordance with Federal statutes,                    • All of the hospital’s contracts and
supervises the provision of services to a   regulations, guidelines and policies;                    arrangements with referral sources
patient should be responsible for the          • Allocations from a hospital chain’s                 comply with all applicable statutes and
correct documentation of the services       home office cost statement to individual                 regulations;
that were rendered;                         hospital cost reports are accurately                        • The hospital does not submit or
   • The appropriate documentation          made and supportable by verifiable and                   cause to be submitted to the Federal
must be placed in the patient record and    auditable data; and                                      health care programs claims for patients
signed by the physician who provided           • Procedures are in place and                         who were referred to the hospital
or supervised the provision of services     documented for notifying promptly the                    pursuant to contracts and financial
to the patient;                             Medicare fiscal intermediary (or any                     arrangements that were designed to
   • Every physician is responsible for     other applicable payor, e.g., TRICARE                    induce such referrals in violation of the
assuring that in cases where that           (formerly CHAMPUS) and Medicaid) of                      anti-kickback statute, Stark physician
physician provides evaluation and           errors discovered after the submission of                self-referral law or similar Federal or
management (E&M) services, a patient’s      the hospital cost report, and where                      State statute or regulation; and
medical record includes appropriate         applicable, after the submission of a                       • The hospital does not enter into
documentation of the applicable key         hospital chain’s home office cost                        financial arrangements with hospital-
components of the E&M service               statement.                                               based physicians that are designed to
provided or supervised by the physician        With regard to bad debts claimed on                   provide inappropriate remuneration to
(e.g., patient history, physician           the Medicare cost report, see also                       the hospital in return for the physician’s
examination, and medical decision           section six, below, on Bad Debts.                        ability to provide services to Federal
making), as well as documentation to           4. Medical Necessity—Reasonable                       health care program beneficiaries at that
adequately reflect the procedure or         and Necessary Services. A hospital’s                     hospital.32
portion of the service performed by the     compliance program should provide                           Further, the policies and procedures
physician; and                              that claims should only be submitted for                 should reference the OIG’s safe harbor
   • Every physician should document        services that the hospital has reason to                 regulations, clarifying those payment
his or her presence during the key          believe are medically necessary and that                 practices that would be immune from
portion of any service or procedure for     were ordered by a physician 30 or other                  prosecution under the anti-kickback
which payment is sought.                    appropriately licensed individual.                       statute. See 42 CFR 1001.952.
   d. Cost reports. With regard to cost        As a preliminary matter, the OIG                         6. Bad Debts. A hospital should
report issues, the written policies         recognizes that licensed health care                     develop a mechanism 33 to review, at
should include procedures that seek to      professionals must be able to order any                  least annually: (1) whether it is properly
ensure full compliance with applicable      services that are appropriate for the                    reporting bad debts to Medicare; and (2)
statutes, regulations and program           treatment of their patients. However,                    all Medicare bad debt expenses claimed,
requirements and private payor plans.       Medicare and other government and                        to ensure that the hospital’s procedures
Among other things, the hospital’s          private health care plans will only pay                  are in accordance with applicable
procedures should ensure that:              for those services that meet appropriate
   • Costs are not claimed unless based     medical necessity standards (in the case                    31 Towards this end, the hospital’s in-house

on appropriate and accurate                 of Medicare, i.e., ‘‘reasonable and                      counsel or compliance officer should, inter alia,
documentation;                              necessary’’ services). Providers may not                 obtain copies of all OIG regulations, special fraud
   • Allocations of costs to various cost   bill for services that do not meet the
                                                                                                     alerts and advisory opinions concerning the anti-
                                                                                                     kickback statute, Civil Monetary Penalties Law
centers are accurately made and             applicable standards. The hospital is in                 (CMPL) and Stark physician self-referral law (the
supportable by verifiable and auditable                                                              fraud alerts and anti-kickback or CMPL advisory
data;                                         30 For Medicare reimbursement purposes, a              opinions are published on HHS OIG’s home page
   • Unallowable costs are not claimed      physician is defined as: (1) a doctor of medicine or     on the Internet), and ensure that the hospital’s
                                            osteopathy; (2) a doctor of dental surgery or of         policies reflect the guidance provided by the OIG.
for reimbursement;                                                                                      32 See fn. 25, supra.
                                            dental medicine; (3) a podiatrist; (4) an optometrist;
   • Accounts containing both allowable     and (5) a chiropractor, all of whom must be                 33 E.g., assigning in-house counsel or contracting
and unallowable costs are analyzed to       appropriately licensed by the state. 42 U.S.C.           with an independent professional organization,
determine the unallowable amount that       1395x(r).                                                such as an accounting, law or consulting firm.
                       Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices                                                    8993

Federal and State statutes, regulations,      confirm the effectiveness of the                        Designating a compliance officer with
guidelines and policies. In addition,         program, e.g., documentation that                       the appropriate authority is critical to
such a review should ensure that the          employees were adequately trained;                      the success of the program, necessitating
hospital has appropriate and reasonable       reports from the hospital’s hotline,                    the appointment of a high-level official
mechanisms in place regarding                 including the nature and results of any                 in the hospital with direct access to the
beneficiary deductible or copayment           investigation that was conducted;                       hospital’s governing body and the
collection efforts and has not claimed as     modifications to the compliance                         CEO.35 The officer should have
bad debts any routinely waived                program; self-disclosure; and the results               sufficient funding and staff to perform
Medicare copayments and deductibles,          of the hospital’s auditing and                          his or her responsibilities fully.
which waiver also constitutes a               monitoring efforts.34                                   Coordination and communication are
violation of the anti-kickback statute.          9. Compliance as an Element of a                     the key functions of the compliance
Further, the hospital may consult with        Performance Plan. Compliance                            officer with regard to planning,
the appropriate fiscal intermediary as to     programs should require that the                        implementing, and monitoring the
bad debt reporting requirements, if           promotion of, and adherence to, the                     compliance program.
questions arise.                              elements of the compliance program be                      The compliance officer’s primary
   7. Credit Balances. The hospital           a factor in evaluating the performance of               responsibilities should include:
should institute procedures to provide        managers and supervisors. They, along                      • Overseeing and monitoring the
for the timely and accurate reporting of      with other employees, should be                         implementation of the compliance
Medicare and other Federal health care        periodically trained in new compliance                  program; 36
program credit balances. For example, a       policies and procedures. In addition, all                  • Reporting on a regular basis to the
hospital may redesignate segments of its      managers and supervisors involved in                    hospital’s governing body, CEO and
information system to allow for the           the coding, claims and cost report                      compliance committee on the progress
segregation of patient accounts               development and submission processes                    of implementation, and assisting these
reflecting credit balances. The hospital      should:                                                 components in establishing methods to
could remove these accounts from the             • Discuss with all supervised                        improve the hospital’s efficiency and
active accounts and place them in a                                                                   quality of services, and to reduce the
                                              employees the compliance policies and
holding account pending the processing                                                                hospital’s vulnerability to fraud, abuse
                                              legal requirements applicable to their
of a reimbursement claim to the                                                                       and waste;
                                              function;                                                  • Periodically revising the program in
appropriate program. A hospital’s                • Inform all supervised personnel
information system should have the                                                                    light of changes in the needs of the
                                              that strict compliance with these                       organization, and in the law and
ability to print out the individual           policies and requirements is a condition
patient accounts that reflect a credit                                                                policies and procedures of government
                                              of employment; and                                      and private payor health plans;
balance in order to permit simplified            • Disclose to all supervised personnel
tracking of credit balances.                                                                             • Developing, coordinating, and
                                              that the hospital will take disciplinary                participating in a multifaceted
   In addition, a hospital should
                                              action up to and including termination                  educational and training program that
designate at least one person (e.g., in the
                                              or revocation of privileges for violation               focuses on the elements of the
Patient Accounts Department or
                                              of these policies or requirements.                      compliance program, and seeks to
reasonable equivalent thereof) as having
                                                 In addition to making performance of                 ensure that all appropriate employees
the responsibility for the tracking,
                                              these duties an element in evaluations,                 and management are knowledgeable of,
recording and reporting of credit
                                              the compliance officer or hospital                      and comply with, pertinent Federal and
balances. Further, a comptroller or an
                                              management should include in the                        State standards;
accountant in the hospital’s Accounting
Department (or reasonable equivalent          hospital’s compliance program a policy                     • Ensuring that independent
thereof) may review reports of credit         that managers and supervisors will be                   contractors and agents who furnish
balances and reimbursements or                sanctioned for failure to instruct                      medical services to the hospital are
adjustments on a monthly basis as an          adequately their subordinates or for                    aware of the requirements of the
additional safeguard.                         failing to detect noncompliance with                    hospital’s compliance program with
   8. Retention of Records. Hospital          applicable policies and legal                           respect to coding, billing, and
compliance programs should provide            requirements, where reasonable                          marketing, among other things;
for the implementation of a records           diligence on the part of the manager or                    • Coordinating personnel issues with
system. This system should establish          supervisor would have led to the                        the hospital’s Human Resources office
policies and procedures regarding the         discovery of any problems or violations
creation, distribution, retention, storage,   and given the hospital the opportunity                     35 The OIG believes that there is some risk to

retrieval and destruction of documents.       to correct them earlier.                                establishing an independent compliance function if
                                                                                                      that function is subordinance to the hospital’s
The two types of documents developed          B. Designation of a Compliance Officer                  general counsel, or comptroller or similar hospital
under this system should include: (1) all     and a Compliance Committee                              financial officer. Free standing compliance
records and documentation, e.g.,                                                                      functions help to ensure independent and objective
clinical and medical records and claims         1. Compliance Officer. Every hospital                 legal reviews and financial analyses of the
                                              should designate a compliance officer to                institution’s compliance efforts and activities. By
documentation, required either by                                                                     separating the compliance function from the key
Federal or State law for participation in     serve as the focal point for compliance                 management positions of general counsel or chief
Federal health care programs (e.g.,           activities. This responsibility may be the              hospital financial officer (where the size and
Medicare’s conditions of participation        individual’s sole duty or added to other                structure of the hospital make this a feasible
                                              management responsibilities, depending                  option), a system of checks and balances is
requirement that hospital records                                                                     established to more effectively achieve the goals of
regarding Medicare claims be retained         upon the size and resources of the                      the compliance program.
for a minimum of five years, see 42 CFR       hospital and the complexity of the task.                   36 For multi-hospital organizations, the OIG

482.24(b)(1) and HCFA Hospital Manual                                                                 encourages coordination with each hospital owned
                                                34 The creation and retention of such documents       by the corporation or foundation through the use of
section 413(C)(12–91)); and (2) all           and reports may raise a variety of legal issues, such   a headquarter’s compliance officer, communicating
records necessary to protect the integrity    as patient privacy and confidentiality. These issues    with parallel positions in each facility, or regional
of the hospital’s compliance process and      are best discussed with legal counsel.                  office, as appropriate.
8994                         Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices

(or its equivalent) to ensure that the                  program.39 The committee’s functions                   and marketing practices that reflect
National Practitioner Data Bank and                     should include:                                        current legal and program standards.
Cumulative Sanction Report 37 have                         • Analyzing the organization’s                      The organization must take steps to
been checked with respect to all                        industry environment, the legal                        communicate effectively its standards
employees, medical staff and                            requirements with which it must                        and procedures to all affected
independent contractors;                                comply, and specific risk areas;                       employees, physicians, independent
                                                           • Assessing existing policies and                   contractors and other significant agents,
  • Assisting the hospital’s financial
                                                        procedures that address these areas for                e.g., by requiring participation in
management in coordinating internal
                                                        possible incorporation into the                        training programs and disseminating
compliance review and monitoring                        compliance program;                                    publications that explain in a practical
activities, including annual or periodic                   • Working with appropriate hospital                 manner specific requirements.40
reviews of departments;                                 departments to develop standards of                    Managers of specific departments or
  • Independently investigating and                     conduct and policies and procedures to                 groups can assist in identifying areas
acting on matters related to compliance,                promote compliance with the                            that require training and in carrying out
including the flexibility to design and                 institution’s program;                                 such training. Training instructors may
coordinate internal investigations (e.g.,                  • Recommending and monitoring, in                   come from outside or inside the
responding to reports of problems or                    conjunction with the relevant                          organization. New employees should be
suspected violations) and any resulting                 departments, the development of                        targeted for training early in their
corrective action with all hospital                     internal systems and controls to carry                 employment.41 Any formal training
departments, providers and sub-                         out the organization’s standards,                      undertaken by the hospital as part of the
providers,38 agents and, if appropriate,                policies and procedures as part of its                 compliance program should be
independent contractors; and                            daily operations;                                      documented by the compliance officer.
                                                           • Determining the appropriate                          A variety of teaching methods, such
  • Developing policies and programs                                                                           as interactive training, and training in
                                                        strategy/approach to promote
that encourage managers and employees                                                                          several different languages, particularly
                                                        compliance with the program and
to report suspected fraud and other                     detection of any potential violations,                 where a hospital has a culturally diverse
improprieties without fear of retaliation.              such as through hotlines and other fraud               staff, should be implemented so that all
  The compliance officer must have the                  reporting mechanisms; and                              affected employees are knowledgeable
authority to review all documents and                      • Developing a system to solicit,                   of the institution’s standards of conduct
other information that are relevant to                  evaluate and respond to complaints and                 and procedures for alerting senior
compliance activities, including, but not               problems.                                              management to problems and concerns.
limited to, patient records, billing                       The committee may also address other                Targeted training should be provided to
records, and records concerning the                     functions as the compliance concept                    corporate officers, managers and other
marketing efforts of the facility and the               becomes part of the overall hospital                   employees whose actions affect the
hospital’s arrangements with other                      operating structure and daily routine.                 accuracy of the claims submitted to the
parties, including employees,                                                                                  Government, such as employees
                                                        C. Conducting Effective Training and                   involved in the coding, billing, cost
professionals on staff, independent                     Education
contractors, suppliers, agents, and                                                                            reporting and marketing processes.
hospital-based physicians, etc. This                       The proper education and training of                Given the complexity and
policy enables the compliance officer to                corporate officers, managers, employees,               interdependent relationships of many
review contracts and obligations                        physicians and other health care                       departments, proper coordination and
(seeking the advice of legal counsel,                   professionals, and the continual                       supervision of this process by the
where appropriate) that may contain                     retraining of current personnel at all                 compliance officer is important. In
referral and payment issues that could                  levels, are significant elements of an                 addition to specific training in the risk
violate the anti-kickback statute, as well              effective compliance program. As part of               areas identified in section II.A.2, above,
as the physician self-referral prohibition              their compliance programs, hospitals                   primary training to appropriate
and other legal or regulatory                           should require personnel to attend                     corporate officers, managers and other
requirements.                                           specific training on a periodic basis,                 hospital staff should include such topics
                                                        including appropriate training in                      as:
  2. Compliance Committee. The OIG                      Federal and State statutes, regulations                   • Government and private payor
recommends that a compliance                            and guidelines, and the policies of                    reimbursement principles;
committee be established to advise the                  private payors, and training in corporate                 • General prohibitions on paying or
compliance officer and assist in the                    ethics, which emphasizes the                           receiving remuneration to induce
implementation of the compliance                        organization’s commitment to                           referrals;
                                                        compliance with these legal                               • Proper confirmation of diagnoses;
  37 The Cumulative Sanction Report is an OIG-
                                                        requirements and policies.
produced report available on the Internet at http:/                                                              40 Some publications, such as OIG’s Management

/www.dhhs.gov/progorg/oig. It is updated on a
                                                           These training programs should
                                                                                                               Advisory Report entitled ‘‘Financial Arrangements
regular basis to reflect the status of health care      include sessions highlighting the                      between Hospitals and Hospital-Based Physicians,’’
providers who have been excluded from                   organization’s compliance program,                     Special Fraud Alerts, audit and inspection reports,
participation in the Medicare and Medicaid              summarizing fraud and abuse laws,                      and advisory opinions, as well as the annual OIG
programs. In addition, the General Services                                                                    work plan, are readily available from the OIG and
Administration maintains a monthly listing of
                                                        coding requirements, claim                             could be the basis for standards, educational
debarred contractors on the Internet at http://         development and submission processes                   courses and programs for appropriate hospital
www.arnet.gov/epls. Also, once the data base                                                                   employees.
established by the Health Care Fraud and Abuse            39 The compliance committee benefits from              41 Certain positions, such as those involving the
Data Collection Act of 1996 is fully operational, the   having the perspectives of individuals with varying    coding of medical services, create a greater
hospital should regularly request information from      responsibilities in the organization, such as          organizational legal exposure, and therefore require
this data bank as part of its employee screening        operations, finance, audit, human resources,           specialized training. One recommendation would
process.                                                utilization review, social work, discharge planning,   be for a hospital to attempt to fill such positions
  38 E.g., skilled nursing facilities and home health   medicine, coding and legal, as well as employees       with individuals who have the appropriate
agencies.                                               and managers of key operating units.                   educational background and training.
                            Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices                                                   8995

   • Submitting a claim for physician                  and material distributed at training                   number in common work areas.46
services when rendered by a non-                       sessions.                                              Employees should be permitted to
physician (i.e., the ‘‘incident to’’ rule                Finally, the OIG recommends that                     report matters on an anonymous basis.
and the physician physical presence                    hospital compliance programs address                   Matters reported through the hotline or
requirement);                                          the need for periodic professional                     other communication sources that
   • Signing a form for a physician                    education courses that may be required                 suggest substantial violations of
without the physician’s authorization;                 by statute and regulation for certain                  compliance policies, regulations or
   • Alterations to medical records;                   hospital personnel.                                    statutes should be documented and
   • Prescribing medications and                                                                              investigated promptly to determine their
procedures without proper                              D. Developing Effective Lines of                       veracity. A log should be maintained by
authorization;                                         Communication                                          the compliance officer that records such
   • Proper documentation of services                                                                         calls, including the nature of any
rendered; and                                             1. Access to the Compliance Officer.
                                                                                                              investigation and its results. Such
   • Duty to report misconduct.                        An open line of communication
   Clarifying and emphasizing these                    between the compliance officer and                     information should be included in
areas of concern through training and                  hospital personnel is equally important                reports to the governing body, the CEO
educational programs are particularly                  to the successful implementation of a                  and compliance committee. Further,
relevant to a hospital’s marketing and                 compliance program and the reduction                   while the hospital should always strive
financial personnel, in that the pressure              of any potential for fraud, abuse and                  to maintain the confidentiality of an
to meet business goals may render these                waste. Written confidentiality and non-                employee’s identity, it should also
employees vulnerable to engaging in                    retaliation policies should be developed               explicitly communicate that there may
prohibited practices.                                  and distributed to all employees to                    be a point where the individual’s
   The OIG suggests that all relevant                  encourage communication and the                        identity may become known or may
levels of personnel be made part of                    reporting of incidents of potential                    have to be revealed in certain instances
various educational and training                       fraud.45 The compliance committee                      when governmental authorities become
programs of the hospital. Employees                    should also develop several                            involved.
should be required to have a minimum                   independent reporting paths for an                        The OIG recognizes that assertions of
number of educational hours per year,                  employee to report fraud, waste or abuse               fraud and abuse by employees who may
as appropriate, as part of their                       so that such reports cannot be diverted                have participated in illegal conduct or
employment responsibilities.42 For                     by supervisors or other personnel.                     committed other malfeasance raise
example, for certain employees involved                                                                       numerous complex legal and
                                                          The OIG encourages the establishment
in the billing and coding functions,                                                                          management issues that should be
                                                       of a procedure so that hospital
periodic training in proper DRG coding                                                                        examined on a case-by-case basis. The
                                                       personnel may seek clarification from
and documentation of medical records                                                                          compliance officer should work closely
                                                       the compliance officer or members of
should be required.43 In hospitals with                                                                       with legal counsel, who can provide
                                                       the compliance committee in the event
high employee turnover, periodic                                                                              guidance regarding such issues.
                                                       of any confusion or question with regard
training updates are critical.                         to a hospital policy or procedure.                     E. Enforcing Standards Through Well-
   The OIG recommends that attendance                  Questions and responses should be                      Publicized Disciplinary Guidelines
and participation in training programs                 documented and dated and, if
be made a condition of continued                                                                                 1. Discipline Policy and Actions. An
                                                       appropriate, shared with other staff so                effective compliance program should
employment and that failure to comply                  that standards, policies and procedures
with training requirements should result                                                                      include guidance regarding disciplinary
                                                       can be updated and improved to reflect                 action for corporate officers, managers,
in disciplinary action, including                      any necessary changes or clarifications.
possible termination, when such failure                                                                       employees, physicians and other health
                                                       The compliance officer may want to                     care professionals who have failed to
is serious. Adherence to the provisions                solicit employee input in developing
of the compliance program, such as                                                                            comply with the hospital’s standards of
                                                       these communication and reporting                      conduct, policies and procedures, or
training requirements, should be a factor              systems.
in the annual evaluation of each                                                                              Federal and State laws, or those who
employee.44 The hospital should retain                    2. Hotlines and Other Forms of                      have otherwise engaged in wrongdoing,
adequate records of its training of                    Communication. The OIG encourages                      which have the potential to impair the
employees, including attendance logs                   the use of hotlines (including                         hospital’s status as a reliable, honest
                                                       anonymous hotlines), e-mails, written                  and trustworthy health care provider.
  42 Currently, the OIG is monitoring approximately    memoranda, newsletters, and other                         The OIG believes that the compliance
165 corporate integrity agreements that require        forms of information exchange to                       program should include a written policy
many of these training elements. The OIG usually       maintain these open lines of                           statement setting forth the degrees of
requires a minimum of one to three hours annually      communication. If the hospital
for basic training in compliance areas. More is                                                               disciplinary actions that may be
required for speciality fields such as billing and     establishes a hotline, the telephone                   imposed upon corporate officers,
coding.                                                number should be made readily                          managers, employees, physicians and
  43 Accurate coding depends upon the quality and      available to all employees and                         other health care professionals for
completeness of the physician’s documentation.         independent contractors, possibly by
Therefore, the OIG believes that active staff
                                                                                                              failing to comply with the hospital’s
physician participation in educational programs
                                                       conspicuously posting the telephone                    standards and policies and applicable
focusing on coding and documentation should be                                                                statutes and regulations. Intentional or
emphasized by the hospital.                               45 The OIG believes that whistleblowers should be
                                                                                                              reckless noncompliance should subject
  44 In addition, where feasible, the OIG believes     protected against retaliation, a concept embodied in   transgressors to significant sanctions.
that a hospital’s outside contractors, including       the provisions of the False Claims Act. In many
physician corporations, should be afforded the         cases, employees sue their employers under the         Such sanctions could range from oral
opportunity to participate in, or develop their own,   False Claims Act’s qui tam provisions out of
compliance training and educational programs,          frustration because of the company’s failure to take     46 Hospitals should also post in a prominent,

which complement the hospital’s standards of           action when a questionable, fraudulent or abusive      available area the HHS OIG Hotline telephone
conduct, compliance requirements, and other rules      situation was brought to the attention of senior       number, 1–800–HHS–TIPS (447–8477), in addition
and regulations.                                       corporate officials.                                   to any company hotline number that may be posted.
8996                       Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices

warnings to suspension, privilege             in 42 U.S.C. 1320a–7b(f)).48 In addition,                development and submission,
revocation (subject to any applicable         pending the resolution of any criminal                   reimbursement, cost reporting and
peer review procedures), termination or       charges or proposed debarment or                         marketing. In addition, the audits and
financial penalties, as appropriate. The      exclusion, the OIG recommends that                       reviews should inquire into the
written standards of conduct should           such individuals should be removed                       hospital’s compliance with specific
elaborate on the procedures for handling      from direct responsibility for or                        rules and polices that have been the
disciplinary problems and those who           involvement in any Federal health care                   focus of particular attention on the part
will be responsible for taking                program.49 With regard to current                        of the Medicare fiscal intermediaries or
appropriate action. Some disciplinary         employees or independent contractors,                    carriers, and law enforcement, as
actions can be handled by department          if resolution of the matter results in                   evidenced by OIG Special Fraud Alerts,
managers, while others may have to be         conviction, debarment or exclusion, the                  OIG audits and evaluations, and law
resolved by a senior hospital                 hospital should terminate its                            enforcement’s initiatives. See section
administrator. Disciplinary action may        employment or other contract                             II.A.2, supra. In addition, the hospital
be appropriate where a responsible            arrangement with the individual or                       should focus on any areas of concern
employee’s failure to detect a violation      contractor.                                              that have been identified by any entity,
is attributable to his or her negligence or                                                            i.e., Federal, State, or internally, specific
reckless conduct. Personnel should be         F. Auditing and Monitoring                               to the individual hospital.
advised by the hospital that disciplinary        An ongoing evaluation process is                         Monitoring techniques may include
action will be taken on a fair and            critical to a successful compliance                      sampling protocols that permit the
equitable basis. Managers and                 program. The OIG believes that an                        compliance officer to identify and
supervisors should be made aware that         effective program should incorporate                     review variations from an established
they have a responsibility to discipline      thorough monitoring of its                               baseline.51 Significant variations from
employees in an appropriate and               implementation and regular reporting to                  the baseline should trigger a reasonable
consistent manner.                            senior hospital or corporate officers.50                 inquiry to determine the cause of the
   It is vital to publish and disseminate     Compliance reports created by this                       deviation. If the inquiry determines that
the range of disciplinary standards for       ongoing monitoring, including reports                    the deviation occurred for legitimate,
improper conduct and to educate               of suspected noncompliance, should be                    explainable reasons, the compliance
officers and other hospital staff             maintained by the compliance officer                     officer, hospital administrator or
regarding these standards. The                and shared with the hospital’s senior                    manager may want to limit any
consequences of noncompliance should          management and the compliance                            corrective action or take no action. If it
be consistently applied and enforced, in      committee.                                               is determined that the deviation was
order for the disciplinary policy to have        Although many monitoring                              caused by improper procedures,
the required deterrent effect. All levels     techniques are available, one effective                  misunderstanding of rules, including
of employees should be subject to the         tool to promote and ensure compliance                    fraud and systemic problems, the
same disciplinary action for the              is the performance of regular, periodic                  hospital should take prompt steps to
commission of similar offenses. The           compliance audits by internal or                         correct the problem. Any overpayments
commitment to compliance applies to           external auditors who have expertise in                  discovered as a result of such deviations
all personnel levels within a hospital.       Federal and State health care statutes,                  should be returned promptly to the
The OIG believes that corporate officers,     regulations and Federal health care                      affected payor, with appropriate
managers, supervisors, medical staff and      program requirements. The audits                         documentation and a thorough
other health care professionals should        should focus on the hospital’s programs                  explanation of the reason for the
be held accountable for failing to            or divisions, including external                         refund.52
comply with, or for the foreseeable                                                                       Monitoring techniques may also
                                              relationships with third-party
failure of their subordinates to adhere                                                                include a review of any reserves the
                                              contractors, specifically those with
to, the applicable standards, laws, and                                                                hospital has established for payments
                                              substantive exposure to government
procedures.                                                                                            that it may owe to Medicare, Medicaid,
                                              enforcement actions. At a minimum,
   2. New Employee Policy. For all new                                                                 TRICARE or other Federal health care
                                              these audits should be designed to
employees who have discretionary                                                                       programs. Any reserves discovered that
                                              address the hospital’s compliance with
authority to make decisions that may                                                                   include funds that should have been
                                              laws governing kickback arrangements,
involve compliance with the law or                                                                     paid to Medicare or another government
                                              the physician self-referral prohibition,
compliance oversight, hospitals should                                                                 program should be paid promptly,
                                              CPT/HCPSC ICD–9 coding, claim
conduct a reasonable and prudent
background investigation, including a           48 Likewise,  hospital compliance programs
                                                                                                          51 The OIG recommends that when a compliance

reference check, as part of every such                                                                 program is established in a hospital, the compliance
                                              should establish standards prohibiting the               officer, with the assistance of department managers,
employment application.47 The                 execution of contracts with companies that have          should take a ‘‘snapshot’’ of their operations from
application should specifically require       been recently convicted of a criminal offense            a compliance perspective. This assessment can be
the applicant to disclose any criminal        related to health care or that are listed by a Federal   undertaken by outside consultants, law or
                                              agency as debarred, excluded, or otherwise               accounting firms, or internal staff, with
conviction, as defined by 42 U.S.C.           ineligible for participation in Federal health care      authoritative knowledge of health care compliance
1320a–7(i), or exclusion action.              programs.                                                requirements. This ‘‘snapshot,’’ often used as part
Pursuant to the compliance program,              49 Prospective employees who have been
                                                                                                       of benchmarking analyses, becomes a baseline for
hospital policies should prohibit the         officially reinstated into the Medicare and Medicaid     the compliance officer and other managers to judge
                                              programs by the OIG may be considered for                the hospital’s progress in reducing or eliminating
employment of individuals who have            employment upon proof of such reinstatement.             potential areas of vulnerability. For example, it has
been recently convicted of a criminal            50 Even when a hospital is owned by a larger          been suggested that a baseline level include the
offense related to health care or who are     corporate entity, the regular auditing and               frequency and percentile levels of various diagnosis
listed as debarred, excluded or               monitoring of the compliance activities of an            codes and the increased billing of complications
otherwise ineligible for participation in     individual hospital must be a key feature in any         and co-morbidities.
                                              annual review. Appropriate reports on audit                 52 In addition, when appropriate, as referenced in
Federal health care programs (as defined      findings should be periodically provided and             section G.2 reports of fraud or systemic problems
                                              explained to a parent-organization’s senior staff and    should also be made to the appropriate
 47 See   fn. 37, supra.                      officers.                                                governmental authority.
                       Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices                                                     8997

regardless of whether demand has been         actions have been implemented                            authorities, a corrective action plan,54 a
made for such payment.                        successfully.                                            report to the Government,55 and the
   An effective compliance program               The hospital should document its                      submission of any overpayments, if
should also incorporate periodic (at          efforts to comply with applicable                        applicable.
least annual) reviews of whether the          statutes, regulations and Federal health                    Where potential fraud or False Claims
program’s compliance elements have            care program requirements. For                           Act liability is not involved, the OIG
been satisfied, e.g., whether there has       example, where a hospital, in its efforts                recognizes that HCFA regulations and
been appropriate dissemination of the         to comply with a particular statute,                     contractor guidelines already include
program’s standards, training, ongoing        regulation or program requirement,                       procedures for returning overpayments
educational programs and disciplinary                                                                  to the Government as they are
                                              requests advice from a government
actions, among others. This process will                                                               discovered. However, even if the
                                              agency (including a Medicare fiscal
verify actual conformance by all                                                                       overpayment detection and return
                                              intermediary or carrier) charged with
departments with the compliance                                                                        process is working and is being
                                              administering a Federal health care
program. Such reviews could support a                                                                  monitored by the hospital’s audit or
                                              program, the hospital should document
determination that appropriate records                                                                 coding divisions, the OIG still believes
                                              and retain a record of the request and
have been created and maintained to                                                                    that the compliance officer needs to be
                                              any written or oral response. This step
document the implementation of an                                                                      made aware of these overpayments,
                                              is extremely important if the hospital
effective program. However, when                                                                       violations or deviations and look for
                                              intends to rely on that response to guide
monitoring discloses that deviations                                                                   trends or patterns that may demonstrate
                                              it in future decisions, actions or claim
were not detected in a timely manner                                                                   a systemic problem.
due to program deficiencies, appropriate      reimbursement requests or appeals.
                                              Maintaining a log of oral inquiries                         Depending upon the nature of the
modifications must be implemented.                                                                     alleged violations, an internal
Such evaluations, when developed with         between the hospital and third parties
                                              represents an additional basis for                       investigation will probably include
the support of management, can help                                                                    interviews and a review of relevant
ensure compliance with the hospital’s         establishing documentation on which
                                              the organization may rely to                             documents. Some hospitals should
policies and procedures.                                                                               consider engaging outside counsel,
   As part of the review process, the         demonstrate attempts at compliance.
                                              Records should be maintained                             auditors, or health care experts to assist
compliance officer or reviewers should                                                                 in an investigation. Records of the
consider techniques such as:                  demonstrating reasonable reliance and
                                                                                                       investigation should contain
   • On-site visits;                          due diligence in developing procedures
                                                                                                       documentation of the alleged violation,
   • Interviews with personnel involved       that implement such advice.
                                                                                                       a description of the investigative
in management, operations, coding,            G. Responding to Detected Offenses and                   process, copies of interview notes and
claim development and submission,             Developing Corrective Action Initiatives                 key documents, a log of the witnesses
patient care, and other related activities;                                                            interviewed and the documents
   • Questionnaires developed to solicit        1. Violations and Investigations.                      reviewed, the results of the
impressions of a broad cross-section of       Violations of a hospital’s compliance                    investigation, e.g., any disciplinary
the hospital’s employees and staff;           program, failures to comply with
   • Reviews of medical and financial                                                                  action taken, and the corrective action
                                              applicable Federal or State law, and                     implemented. While any action taken as
records and other source documents            other types of misconduct threaten a
that support claims for reimbursement                                                                  the result of an investigation will
                                              hospital’s status as a reliable, honest                  necessarily vary depending upon the
and Medicare cost reports;                    and trustworthy provider capable of
   • Reviews of written materials and                                                                  hospital and the situation, hospitals
                                              participating in Federal health care                     should strive for some consistency by
documentation prepared by the different       programs. Detected but uncorrected
divisions of a hospital; and                                                                           utilizing sound practices and
                                              misconduct can seriously endanger the                    disciplinary protocols. Further, after a
   • Trend analysis, or longitudinal          mission, reputation, and legal status of
studies, that seek deviations, positive or                                                             reasonable period, the compliance
                                              the hospital. Consequently, upon                         officer should review the circumstances
negative, in specific areas over a given      reports or reasonable indications of
period.                                                                                                that formed the basis for the
                                              suspected noncompliance, it is                           investigation to determine whether
   The reviewers should:                      important that the chief compliance
   • Be independent of physicians and                                                                  similar problems have been uncovered.
                                              officer or other management officials
line management;
                                              initiate prompt steps to investigate the
   • Have access to existing audit and                                                                    54 Advice from the hospital’s in-house counsel or
                                              conduct in question to determine                         an outside law firm may be sought to determine the
health care resources, relevant
                                              whether a material violation of                          extent of the hospital’s liability and to plan the
personnel and all relevant areas of                                                                    appropriate course of action.
                                              applicable law or the requirements of
operation;                                                                                                55 The OIG currently maintains a voluntary
   • Present written evaluative reports       the compliance program has occurred,
                                                                                                       disclosure program that encourages providers to
on compliance activities to the CEO,          and if so, take steps to correct the                     report suspected fraud. The concept of voluntary
governing body and members of the             problem.53 As appropriate, such steps                    self-disclosure is premised on a recognition that the
compliance committee on a regular             may include an immediate referral to                     Government alone cannot protect the integrity of
                                              criminal and/or civil law enforcement                    the Medicare and other Federal health care
basis, but no less than annually; and                                                                  programs. Health care providers must be willing to
   • Specifically identify areas where                                                                 police themselves, correct underlying problems and
                                                 53 Instances of non-compliance must be                work with the Government to resolve these matters.
corrective actions are needed.
                                              determined on a case-by-case basis. The existence,       The OIG’s voluntary self-disclosure program has
   With these reports, hospital               or amount, of a monetary loss to a health care           four prerequisites: (1) the disclosure must be on
management can take whatever steps are        program is not solely determinative of whether or        behalf of an entity and not an individual; (2) the
necessary to correct past problems and        not the conduct should be investigated and reported      disclosure must be truly voluntary (i.e., no pending
prevent them from reoccurring. In             to governmental authorities. In fact, there may be       proceeding or investigation); (3) the entity must
                                              instances where there is no monetary loss at all, but    disclose the nature of the wrongdoing and the harm
certain cases, subsequent reviews or          corrective action and reporting are still necessary to   to the Federal programs; and (4) the entity must not
studies would be advisable to ensure          protect the integrity of the applicable program and      be the subject of a bankruptcy proceeding before or
that the recommended corrective               its beneficiaries.                                       after the self-disclosure.
8998                          Federal Register / Vol. 63, No. 35 / Monday, February 23, 1998 / Notices

   If an investigation of an alleged                         When reporting misconduct to the                       III. Conclusion
violation is undertaken and the                           Government, a hospital should provide                        Through this document, the OIG has
compliance officer believes the integrity                 all evidence relevant to the alleged                      attempted to provide a foundation to the
of the investigation may be at stake                      violation of applicable Federal or State                  process necessary to develop an
because of the presence of employees                      law(s) and potential cost impact. The                     effective and cost-efficient hospital
under investigation, those subjects                       compliance officer, under advice of                       compliance program. As previously
should be removed from their current                      counsel, and with guidance from the                       stated, however, each program must be
work activity until the investigation is                  governmental authorities, could be                        tailored to fit the needs and resources of
completed (unless an internal or                          requested to continue to investigate the                  an individual hospital, depending upon
Government-led undercover operation is                                                                              its particular corporate structure,
                                                          reported violation. Once the
in effect). In addition, the compliance                                                                             mission, and employee composition.
                                                          investigation is completed, the
officer should take appropriate steps to                                                                            The statutes, regulations and guidelines
secure or prevent the destruction of                      compliance officer should be required to
                                                          notify the appropriate governmental                       of the Federal and State health
documents or other evidence relevant to                                                                             insurance programs, as well as the
the investigation. If the hospital                        authority of the outcome of the
                                                          investigation, including a description of                 policies and procedures of the private
determines that disciplinary action is                                                                              health plans, should be integrated into
warranted, if should be prompt and                        the impact of the alleged violation on
                                                                                                                    every hospital’s compliance program.
imposed in accordance with the                            the operation of the applicable health                       The OIG recognizes that the health
hospital’s written standards of                           care programs or their beneficiaries. If                  care industry in this country, which
disciplinary action.                                      the investigation ultimately reveals that                 reaches millions of beneficiaries and
   2. Reporting. If the compliance officer,               criminal or civil violations have                         expends about a trillion dollars, is
compliance committee or management                        occurred, the appropriate Federal and                     constantly evolving. However, the time
official discovers credible evidence of                   State officials 60 should be notified                     is right for hospitals to implement a
misconduct from any source and, after                     immediately.                                              strong voluntary compliance program
a reasonable inquiry, has reason to                                                                                 concept in health care. As stated
                                                             As previously stated, the hospital
believe that the misconduct may violate                                                                             throughout this guidance, compliance is
criminal, civil or administrative law,                    should take appropriate corrective
                                                          action, including prompt identification                   a dynamic process that helps to ensure
then the hospital promptly should                                                                                   that hospitals and other health care
report the existence of misconduct to                     and restitution of any overpayment to
                                                          the affected payor and the imposition of                  providers are better able to fulfill their
the appropriate governmental                                                                                        commitment to ethical behavior, as well
authority 56 within a reasonable period,                  proper disciplinary action. Failure to
                                                          repay overpayments within a reasonable                    as meet the changes and challenges
but not more than sixty (60) days 57 after                                                                          being imposed upon them by Congress
determining that there is credible                        period of time could be interpreted as
                                                                                                                    and private insurers. Ultimately, it is the
evidence of a violation.58 Prompt                         an intentional attempt to conceal the
                                                                                                                    OIG’s hope that a voluntarily created
reporting will demonstrate the                            overpayment from the Government,
                                                                                                                    compliance program will enable
hospital’s good faith and willingness to                  thereby establishing an independent                       hospitals to meet their goals, improve
work with governmental authorities to                     basis for a criminal violation with                       the quality of patient care, and
correct and remedy the problem. In                        respect to the hospital, as well as any                   substantially reduce fraud, waste and
addition, reporting such conduct will be                  individuals who may have been                             abuse, as well as the cost of health care
considered a mitigating factor by the                     involved.61 For this reason, hospital                     to Federal, State and private health
OIG in determining administrative                         compliance programs should emphasize                      insurers.
sanctions (e.g., penalties, assessments,                  that overpayment obtained from
and exclusion), if the reporting provider                                                                             Dated: February 11, 1998.
                                                          Medicare or other Federal health care
becomes the target of an OIG                                                                                        June Gibbs Brown,
                                                          programs should be promptly returned
investigation.59                                          to the payor that made the erroneous                      Inspector General.
                                                          payment.62                                                [FR Doc. 98–4399 Filed 2–20–98; 8:45 am]
  56 I.e., Federal and/or State law enforcement
                                                                                                                    BILLING CODE 4150–04–M
having jurisdiction over such matter. Such
governmental authority would include DOJ and OIG          in determining whether it is appropriate to exclude
with respect to Medicare and Medicaid violations          a health care provider from program participation
giving rise to causes of actions under various            pursuant to 42 U.S.C. 1320a–7(b)(7) for violations        DEPARTMENT OF HEALTH AND
criminal, civil and administrative false claims           of various fraud and abuse laws. See 62 FR 67392,         HUMAN SERVICES
statutes.                                                 December 24, 1997.
                                                            60 Appropriate Federal and State authorities
  57 To qualify for the ‘‘not less than double
                                                                                                                    Office of Inspector General
damages’’ provision of the False Claims Act, the          include the Criminal and Civil Divisions of the
report must be provided to the Government within          Department of Justice, the U.S. Attorney in the           Program Exclusions: January 1998
thirty (30) days after the date when the hospital first   hospital’s district, and the investigative arms for the
obtained the information. 31 U.S.C. 3729(a).              agencies administering the affected Federal or State      AGENCY:   Office of Inspector General,
  58 The OIG believes that some violations may be         health care programs, such as the State Medicaid
                                                          Fraud Control Unit, the Defense Criminal                  HHS.
so serious that they warrant immediate notification
to governmental authorities, prior to, or                 Investigative Service, and the Offices of Inspector       ACTION:   Notice of program exclusions.
simultaneous with, commencing an internal                 General of the Department of Health and Human
investigation, e.g., if the conduct: (1) is a clear       Services, the Department of Veterans Affairs and            During the month of January 1998, the
violation of criminal law; (2) has a significant          the Office of Personnel Management (which                 HHS Office of Inspector General
adverse effect on the quality of care provided to         administers the Federal Employee Health Benefits
                                                          Program).
                                                                                                                    imposed exclusions in the cases set
program beneficiaries (in addition to any other legal
obligations regarding quality of care); or (3)              61 See 42 U.S.C. 1320a–7b(a)(3).                        forth below. When an exclusion is
indicates evidence of a systemic failure to comply          62 Normal repayment channels as described in            imposed, no program payment is made
with applicable laws, an existing corporate integrity     HCFA’s manuals and guidances are the appropriate          to anyone for any items or services
agreement, or other standards of conduct, regardless      vehicle for repaying identified overpayments.             (other than an emergency item or
of the financial impact on Federal health care            Hospitals should consult with its fiscal
programs.                                                 intermediary or HCFA for any further guidance
                                                                                                                    service not provided in a hospital
  59 The OIG has published criteria setting forth         regarding these repayment channels. Interest will be      emergency room) furnished, ordered or
those factors that the OIG takes into consideration       assessed, when appropriate. See 42 CFR 405.376.           prescribed by an excluded party under
